September 21, 2009

KENNETH S. MCARTHUR
MANAGER, SALT LAKE CITY CUSTOMER SERVICE DISTRICT

SUBJECT:         Audit Report – Salt Lake City Airport Mail Center Closure
                (Report Number EN-AR-09-004)

This report presents the results of our audit of the Salt Lake City Airport Mail Center
(AMC) Closure (Project Number 08XG041EN000). Our objectives were to assess the
operational and monetary impacts of the Salt Lake City AMC closure and evaluate
compliance with policies. This audit addresses operational risks, is part of our Value
Proposition agreement,1 and is the fourth in a series of AMC reviews. See Appendix A
for additional information about this audit.

Conclusion

The decision to close the Salt Lake City AMC on August 30, 2008, reduced costs
without impacting service. However, management did not perform a complete analysis
to determine all monetary impacts, including how the facility would be used after the
AMC closed. Although management has made continuing improvements to operational
efficiency, additional opportunities exist. Specifically, management did not review and
adjust workhours for the workload transferred to the Salt Lake City Processing and
Distribution Center (P&DC), which could save $414,891 over 5 years. In addition,
management could save $466,120 by terminating the land lease and selling the building
in 2012. See Appendix G for summary of funds put to better use. We also identified
concerns with mail security at the airline freight houses. Management generally
complied with relevant policies but had not measured the results of this initiative.

Operational Impacts

Service – After closing the Salt Lake City AMC, management maintained service by
consolidating transportation routes to ensure there would be no service downgrades.
Service scores for overnight, 2-day, and 3-day service remained consistent with scores
from the same period in fiscal year (FY) 2007. See Appendix B for our detailed analysis
of this topic.



1
 A value proposition is a signed agreement between the U.S. Postal Service Office of Inspector General (OIG) and
Postal Service management to perform one or more specific audits in an agreed-upon period.
Salt Lake City Airport Mail Center Closure                                                                  EN-AR-09-004



Staffing – Management also reduced the number of staff at the Salt Lake City AMC from
30 to nine as a result of the closure, as of March 2009. The other employees
transferred to the Salt Lake City P&DC, retired, or were not reinstated, if they were
casuals. See Appendix B for our detailed analysis of this topic.

AMC Facility – The Postal Service has not vacated the Salt Lake City AMC facility
because of the terms of a 42-year land lease. The Postal Service cannot sever the
lease until the 6th month of the 25th year (August 2012). A retail unit and post office box
section remain operational in the facility. Also, the terminal handling service2 (THS) for
Federal Express (FedEx) and United Parcel Service (UPS) leases the rear of the facility.
Picture 1 shows the retail section of the AMC. See Appendix B for our detailed analysis
of this topic.

                        Picture 1: Fletcher F. Acord Airport Mail Facility3




Mail Security – We identified concerns with mail security at the commercial air carrier
freight houses that contract personnel use to stage and transport mail to and from
aircraft. Specifically, mail at two of the three airline freight houses was not staged in
secure locations.

      • One freight house was also used as a garage, to which maintenance personnel
         had access.


2
  Terminal handling refers to any activity to receive, sort, route, and dispatch sacks, pouches, and outsides at an
AMC/facility and railroad or a truck terminal.
3
  Airport Mail Facility/Airport Mail Center (AMF/AMC) – is a postal facility at an airport that receives, concentrates,
transfers, dispatches, and distributes mail transported by air. The terms “airport mail facility” and “airport mail center”
are interchangeable.




                                                             2
Salt Lake City Airport Mail Center Closure                                                            EN-AR-09-004



        • Another freight house was left unsecured. See Appendix B for our detailed
           analysis of this topic.

Postal Service Actions – Management has various initiatives in place or planned to
reduce costs and improve efficiency. For example, management has already adjusted
8,750 workhours at the Salt Lake City P&DC to match workhours to workload since the
Salt Lake City AMC closed. In addition, management is considering relocating other
Postal Service operations to the vacant space at the Salt Lake City airport facility.

We recommend the Manager, Salt Lake City Customer Service District:

1. Move the retail unit and post office box section to another facility before
   August 2012, when the land lease can be terminated.

2. Terminate the land lease and sell the former airport mail center building and lease
   rights in August 2012, with an associated economic impact of $466,120.

3. Work with freight house managers to ensure that mail staged at the airline freight
   houses is secure.

Monetary Impacts

Management did not perform a cost analysis to determine overall monetary savings
associated with closing the Salt Lake City AMC and moving non-core AMC functions4 to
the Salt Lake City P&DC. The Salt Lake City AMC was not a part of the Postal
Service’s comparative analysis for outsourcing AMCs, because mail is tendered and
picked up directly by the Postal Service with no THS required. We prepared an
independent analysis to determine potential workhour savings associated with
consolidating AMC functions into the P&DC. See Appendix B for our detailed analysis
of this topic.

We recommend the Manager, Salt Lake City Customer Service District:

4. Reduce mail processing workhours by 6,940 at the Salt Lake City Processing and
   Distribution Center, with an associated economic impact of $414,891 over 5 years.

Compliance with Policies and Procedures

Management generally complied with Article 12 of the national agreement with unions
by following notification policies and procedures before moving operations to the Salt
Lake City P&DC. See Appendix B for our detailed analysis of this topic.



4
    Non-core AMC functions include automated mail processing, distribution and assignment, and material handling.




                                                          3
Salt Lake City Airport Mail Center Closure                                    EN-AR-09-004




Management’s Comments

Management did not agree with recommendations 1 and 2 to move the retail unit and
box section, terminate the land lease, and sell the former AMC building. Management
also did not agree with the associated monetary impact. However, management stated
they are implementing operational changes that meet the spirit of the recommendations
and achieve equivalent savings. Management agreed with findings 3 and 4 and the
associated monetary impacts, and stated they have already implemented those
recommendations. Management’s comments, in their entirety, are included in
Appendix H.

Evaluation of Management’s Comments

The OIG considers management’s comments responsive to the recommendations and
management’s corrective actions should resolve the issues identified in the report.
Management intends to terminate the lease for two adjacent facilities and move those
operations to the former AMC building, generating equivalent savings. We believe
these alternative cost saving actions satisfy the intent of recommendations 1 and 2, but
will report our projected cost savings since management’s alternative involves facilities
outside the scope of our review and could not be validated.

We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact Michael A. Magalski, Director,
Network Optimization, or me at (703) 248-2100.

     E-Signed by Robert Batta
 VERIFY authenticity with ApproveIt




Robert J. Batta
Deputy Assistant Inspector General
 for Mission Operations

Attachments

cc: Patrick R. Donahoe
    Steven J. Forte
    Sylvester Black
    Cynthia F. Mallonee
    Gus G. Chaus
    Bill Harris




                                             4
Salt Lake City Air Mail Center Closure                                                             EN-AR-09-004



                           APPENDIX A: ADDITIONAL INFORMATION

BACKGROUND

The Postal Service maintains AMCs and AMFs to expedite the transfer of mail to and
from commercial air carriers. This transfer is called the tender and receipt of mail. In
many cases, these airport facilities have excess capacity as a result of declining
volumes of mail tendered to commercial air carriers. Commercial air volume has
declined from approximately 837 million pounds of mail in FY 2004 to 410 million
pounds in FY 2008. Figure 1 shows this trend. To address this issue, the Postal
Service began standardizing AMCs by returning non-core AMC operations to P&DCs
and bulk mail centers. This standardization enabled the Postal Service to improve
efficiency and productivity and reduce costs at the AMCs.




Optimizing the Network

The Postal Service identified Network Integration and Alignment (NIA) as a strategy in
the Transformation Plan.5 NIA’s charter was to create a flexible logistics network that
would reduce costs for the Postal Service and its customers, increase operational
effectiveness, and improve consistency of service. In 2003, the President’s
Commission6 found the Postal Service had more facilities than needed and
recommended optimizing the facility network.

The Strategic Transformation Plan 2006-20107 stated the efforts to create a flexible
network to increase productivity and effectiveness—formerly called Network Integration
and Alignment—would continue as an evolutionary process, called Evolutionary
Network Development. One of these efforts was to reexamine the role of AMCs to
determine whether the number of these facilities could be reduced and better
coordinated using third-party facilities (contracting out). The 2006 Annual Progress
Report8 noted that because of the consolidation of air contractors and expansion of the

5
  United States Postal Service’s Transformation Plan, dated April 2002.
6
  Report of the President’s Commission on the United States Postal Service, dated July 31, 2003.
7
  Strategic Transformation Plan 2006-2010, dated September 2005.
8
  Strategic Transformation Plan 2006-2010, 2006 Annual Progress Report, dated December 2006.




                                                        5
Salt Lake City Air Mail Center Closure                                           EN-AR-09-004



surface transportation network, the Postal Service was reviewing AMCs. At that time,
management was considering contracting out operations at 43 AMCs. The Strategic
Transformation Plan 2006-2010 2007 Update9 noted that some non-core operations
were transferred from AMCs to processing plants. The Postal Service standardized
more than 40 facilities and made plans to standardize additional facilities in 2008.

Operational Impact

Because of security restrictions the Federal Aviation Administration imposed after
September 11, 2001, the Postal Service no longer used commercial passenger aircraft
for Priority Mail®. Consequently, there was a significant decrease in the volume of mail
tendered to commercial passenger carriers. Priority Mail was tendered to FedEx and
UPS and containerized by THSs in specially configured facilities. This contributed to the
underuse of AMCs. Before the initiative to outsource and reduce the number of AMCs,
the Postal Service had 80 AMCs—12 percent of the facilities in the processing network.
See Appendix C for the status and disposition of AMCs as of October 22, 2008.

In January 2006, management implemented a nationwide integrated air strategy that
included reducing reliance on passenger airlines; renegotiating and renewing the FedEx
contract, and, where possible, shifting mail moved by air to less costly ground
transportation. This strategy allowed the Postal Service to eliminate infrastructure
because contractors tendered and received mail and performed other AMC core
operations, reducing or eliminating the need for some AMCs.

In September 2006, the Postal Service issued a new commercial air contract with seven
air carriers: American Airlines, American Trans Air, Continental, Jet Blue, Midwest
Express, Sun Country, and US Airways/America West. In April 2007, the Postal Service
added an eighth air carrier, United Airlines, on a trial basis. The previous commercial
air contract used 17 air carriers. At the same time, the Postal Service continued with its
air-to-surface initiative, which diverted 3-day First-Class Mail® (FCM) volume to surface
transportation. This reduction of air carriers and increased use of surface transportation
provided an opportunity to use direct tender and receipt of mail.




9
    Strategic Transformation Plan 2006-2010, 2007 Update, dated December 2007.




                                                        6
Salt Lake City Air Mail Center Closure                                                           EN-AR-09-004




OBJECTIVES, SCOPE, AND METHODOLOGY

Our objectives were to assess the operational and monetary impacts of the Salt Lake
City AMC closure and evaluate compliance with policies. To accomplish the objectives,
we interviewed Postal Service managers, visited the Salt Lake City AMC, the Salt Lake
City P&DC, and the Salt Lake City Auxiliary Service Facility (ASF). We performed a
limited review of Article 12 processes the Postal Service followed to terminate AMC
operations. We also reviewed the Salt Lake City AMC land lease and evaluated service
performance before and after the non-core operations were moved. In addition, we
reviewed available guidance for moving mail processing operations at AMCs and the
implications of the Postal Act of 2006.10

We relied on several Postal Service data systems: Enterprise Data Warehouse
System, Web Complement Information System, and the Transportation Contract
Support System. We did not test the controls over these systems. However, we
checked the accuracy and reasonableness of the data by confirming our analysis and
results with management and by consulting different data sources. We found no
material differences. Because management did not develop a comparative analysis to
project cost savings, we relied on other documents to complete our analysis.

We conducted this performance audit from August 2008 through September 200911 in
accordance with generally accepted government auditing standards and included such
tests of internal controls as we considered necessary under the circumstances. Those
standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our
audit objectives. We believe the evidence obtained provides a reasonable basis for our
findings and conclusions based on our audit objectives. We discussed our observations
and conclusions with management on June 30, 2009, and included their comments
where appropriate.




10
   Postal Accountability and Enhancement Act, Public Law 109-435, dated December 2006.
11
   This audit was temporarily suspended from October 2, 2008, to November 14, 2008, to accommodate other
priorities.




                                                       7
   Salt Lake City Air Mail Center Closure                                             EN-AR-09-004




   PRIOR AUDIT COVERAGE
                           Report           Final Report
    Report Title           Number               Date                      Report Results
St. Louis Airport        EN-AR-08-          February 29,    The decision to outsource some
Mail Center              002                2008            operations at the St. Louis AMC was
Outsourcing                                                 supported and should reduce costs with
                                                            minimal impact on service performance.
                                                            However, management did not formalize
                                                            lessons learned and best practices and
                                                            develop guidance for measuring results.
                                                            Management agreed with
                                                            recommendations to formalize lessons
                                                            learned, establish a post-implementation
                                                            review (PIR) program for AMCs, and
                                                            conduct a PIR for the St. Louis AMC.
Miami Air Mail           EN-AR-08-          July 16, 2008   The Postal Service’s planning for the
Center                   004                                Miami AMC outsourcing initiative
Outsourcing                                                 appeared adequate. The Postal Service
                                                            made the decision to outsource some
                                                            operations at the Miami AMC and reduce
                                                            costs with minimal impact on service
                                                            performance. Management generally
                                                            complied with existing policies and
                                                            procedures. Management agreed with
                                                            the recommendation to conduct a PIR
                                                            after outsourcing the Miami AMC to
                                                            determine whether the outsourcing was
                                                            cost effective.
Best Practices for       EN-MA-08-          September       Our review identified best practices in the
Post-                    002                15, 2008        use of PIRs at other government
Implementation                                              organizations. These best practices help
Reviews of Air                                              determine whether outsourcing initiatives
Mail Center                                                 achieve intended results and could be of
Initiatives                                                 assistance to the U.S. Postal Service.




                                                    8
   Salt Lake City Air Mail Center Closure                                             EN-AR-09-004




                           Report           Final Report
  Report Title             Number               Date                     Report Results
Boston Airport           EN-AR-09-          May 14, 2009   The Postal Service saved approximately
Mail Center              003                               $8.4 million in costs in the first calendar
Outsourcing                                                year following the AMC outsourcing.
                                                           However, the comparative analysis
                                                           developed during outsourcing planning
                                                           was overstated by approximately
                                                           $3.1 million over the contract period of 11
                                                           years. The Postal Service also paid
                                                           $172,857 in unsupported parking fees
                                                           and $31,611 for equipment not used to
                                                           process the mail from May 2006 through
                                                           January 2009. Eliminating these costs
                                                           for the remaining term of the contract
                                                           (4.5 years) could save the Postal Service
                                                           $318,330.
Data Needed to           GAO-08-787         July 2008      The audit found the Postal Service has
Assess                                                     no statutory restrictions on the work it
Effectiveness of                                           may outsource; however, collective
Outsourcing                                                bargaining agreements impose some
                                                           requirements and limitations. The
                                                           Government Accountability Office (GAO)
                                                           recommended the Postmaster General
                                                           establish a process to measure the
                                                           results and effectiveness of outsourcing
                                                           activities subject to collective bargaining,
                                                           including tracking actual costs and
                                                           savings and comparing them with
                                                           estimated costs and savings. Further,
                                                           GAO recommended the Postal Service
                                                           include information on the results and
                                                           effectiveness of these ongoing
                                                           outsourcing activities in its annual
                                                           operations report to Congress,
                                                           Comprehensive Statement on Postal
                                                           Operations.




                                                    9
Salt Lake City Air Mail Center Closure                                         EN-AR-09-004



                              APPENDIX B: DETAILED ANALYSIS

Operational Impacts

Service

Closing the AMC did not result in any downgrades to service performance. Overall
service scores for 2-day, 3-day, and overnight service within the Salt Lake District
remained consistent after the Salt Lake City AMC closed. We compared FY 2008
service scores prior to the closure with FY 2009 service scores after the closure. We
found that service scores dropped slightly in the first quarter of FY 2009 but the decline
was seasonal and not due to the closure of the AMC. Management changed
transportation routes to accommodate the closure and minimize impacts on service.
Chart 1 below shows service scores for the Salt Lake District from FY 2006 to the
second quarter of FY 2009.




Staffing

Closing the Salt Lake City AMC helped the Postal Service realign its network to reduce
costs. Our analysis determined that management was able to reduce the number of
employees at the Salt Lake City AMC from 30 as of July 3, 2008, to 9 by March 2009.




                                            10
Salt Lake City Air Mail Center Closure                                                        EN-AR-09-004




As of March 2009, the 30 former AMC employees were accounted for as follows:

     •   Management transferred 15 to the Salt Lake City P&DC.

     •   Eight are assigned to the Salt Lake City AMC.12

     •   Three retired.

     •   Management did not reinstate three casuals.

     •   Management reassigned one to other operations within the Salt Lake District.

AMC Facility

Although the Postal Service closed the Salt Lake City AMC on August 30, 2008, the
retail unit and the post office box section of the facility remain operational. Express
Mail® arriving from FedEx is processed in the facility by a THS, and nine Postal Service
employees still work the post office box and retail sections. The Postal Service has not
vacated the building, because it signed a 42-year land lease with the City of Salt Lake
Airport Authority on January 20, 1987. The terms of the lease state the Postal Service
cannot terminate the land lease until the 6th month of the 25th year of the lease.
Because the facility cannot be vacated at this time, the Postal Service is leasing
approximately 50 percent of the building to the THS that processes UPS and FedEx
mail. Management believes renting the rear of the facility to the THS is more cost
effective than terminating the lease or vacating the building.

The Postal Accountability and Enhancement Act Section 302 Network Plan, dated June
19, 2008, states

. . .In addition to streamlining mail processing and improving efficiency, AMC
         consolidations result in cost advantages for the Postal Service. These
         include facility and land lease cost avoidance, as well as moving
         underutilized AMC personnel to more productive P&DC operations,
         and the use of existing commercial THS providers.

The FY 2008 Summary of the Network Plan states

         Four AMC closures have been implemented since the Network Plan
         was submitted. These facilities were located in or near Dallas, TX;
         Jacksonville, FL; Fort Myers, FL; and Salt Lake City, UT. These


12
  Nine employees are showing on rolls per the March 2009 webCOINS report. One employee was not on the
staffing list provided by management.




                                                    11
Salt Lake City Air Mail Center Closure                                         EN-AR-09-004



        closures avoid the unnecessary expense of leasing and maintaining
        facilities on costly airport property.

The verbiage in the reports suggests the Salt Lake City AMC has been closed and the
lease terminated.

Mail Security

Since the closure of the Salt Lake City AMC, FCM is no longer staged at the facility.
Instead, postal vehicles transport mail from the Salt Lake City P&DC to the airline freight
houses. The freight houses are managed by personnel contracted by the airlines to
stage and transport the mail to and from the aircraft. During our site visit, we toured the
three freight houses and noted the contractors did not stage the mail in secure
locations. For example, we were able to enter one of the freight houses from the airport
side, because the door was unlocked constantly. Contractors used another freight
house as a maintenance garage. The mechanics in the freight house were performing
maintenance on an airline tug, with maintenance personnel entering and exiting the
facility and working around the staged mail. Freight house personnel believed the
freight houses are secure, because the buildings are located on airport property, with
special clearances required to access airport property. However, postal managers
expressed concerns about mail security. Although the freight houses are located on
secure airport property, mail staged in unsecured freight houses is subject to being lost,
stolen, or damaged. See Picture 2 showing a freight house used as a garage and mail
staging area.

    Picture 2. Freight House Used to Stage Mail and Service Airport Equipment




                                            12
Salt Lake City Air Mail Center Closure                                            EN-AR-09-004




Monetary Impacts

We determined the Postal Service did not conduct an analysis to determine overall cost
savings associated with the Salt Lake City AMC closure.

       •   The Manager, Transportation, conducted a transportation analysis at the Salt
           Lake City P&DC to determine cost savings associated with changing
           transportation routes to accommodate the closure. Management determined the
           Postal Service would save approximately $79,868 by changing transportation
           routes. We determined the Postal Service would save approximately $201,254
           by changing transportation routes. The difference occurred because
           management did not include one highway schedule in their initial analysis.
           Management eliminated the schedule and combined the trips previously
           associated with the eliminated schedule with an existing schedule. The
           consolidation of trips increased the transportation savings by approximately
           $121,386.

       •   Management did not perform an overall cost analysis to determine all monetary
           savings associated with moving non-core functions to the Salt Lake City P&DC
           and closing the Salt Lake City AMC. Management stated that because the Salt
           Lake City AMC was not considered for outsourcing, no comparative analysis was
           completed. Preparation of a cost benefit analysis would have helped determine
           whether it was more beneficial to close the Salt Lake City AMC and move all
           functions out or leave functions in the facility and continue operating as an AMC.
           In addition, an analysis may have also addressed the timing of the closure given
           the lease concerns addressed in this report.

       •   We prepared a workhour analysis to determine additional cost saving
           opportunties if the Postal Service reduces the hours associated with the non-core
           functions moved from the Salt Lake City AMC to the Salt Lake City P&DC
           through attrition. We used FY 2008 data in the analysis, analyzing mail
           processing operations for the Salt Lake City AMC and Salt Lake City P&DC.13
           Our workhour analysis determined the Salt Lake City P&DC would need 12 Salt
           Lake City AMC employees to process the Salt Lake City AMC volume transferred
           to the Salt Lake City P&DC (9 bargaining unit and 3 executive and administrative
           schedule employees). The remaining mail processing employees could be
           reduced through attrition over a 5-year period resulting in a monetary savings of
           approximately $414,891. Our analysis is net of the monetary savings through
           attrition the Postal Service has realized since the closure. See Appendix E for
           workhour analysis methodology.



13
     The analysis did not include the custodial operation.




                                                             13
Salt Lake City Air Mail Center Closure                                                            EN-AR-09-004



     •   We compared the cost of continuing to occupy the AMC facility and leasing to the
         THS to terminating the lease in August 2012 and selling the AMC building and
         improvements or leasehold interests to the City of Salt Lake Airport Authority.
         We estimated the sale price for the building to be approximately $1.6 million.14
         We considered the costs associated with the THS operating in the AMC, the
         fixed cost associated with the THS operating in its own facility, and the expenses
         associated with maintaining the facility. We determined if the Postal Service
         continues to occupy the facility after August 2012 and allow the THS to operate
         from the rear of the facility, it would incur a loss of approximately $638,594.
         However, if the Postal Service terminates the lease in August 2012, sells the
         building and improvements or leasehold interests to the Airport Authority, and
         incurs the fixed cost of the THS building expense, the Postal Service’s loss would
         be reduced to approximately $172,473.01. The difference between the two
         options is approximately $466,120. See Appendix D for Salt Lake City AMC
         facility land lease timeline. See Appendix F for facility cost methodology.




14
  The XXXXXXXXX is what the approximate book value of the facility will be in August 2012, assuming depreciation
remains constant. However, the facility may sell for a higher appraised value.




                                                       14
Salt Lake City Air Mail Center Closure                                                                    EN-AR-09-004



Compliance with Policies and Procedures

Management complied with policies and procedures when closing the Salt Lake City
AMC. The Postal Service met Article 1215 notification requirements and provided
American Postal Workers Union (APWU) officials and employees with information
regarding the closure. Approximately 4 years before the closure, management advised
the unions in accordance with Article 12 that they were planning to close the Salt Lake
City AMC. However, one grievance was filed due to a violation of crossing crafts.16

     •   March 8, 2005 – Postal Service Headquarters management conducted a
         comparative analysis of 54 AMCs to compare the cost of outsourcing the air mail
         centers to the cost of keeping the air mail center operations in-house.

     •   February 2007 – Postal Service management updated the 2005 comparative
         analysis, which included 14 AMCs, but did not include the Salt Lake City AMC.

     •   April 2007 – Management moved Express Mail from the Salt Lake City AMC to
         the Salt Lake City P&DC.

     •   September 2007 – Management moved Registry mail from the Salt Lake City
         AMC to the Salt Lake City P&DC.

     •   April 24, 2008 – Management met with local mail handler union officials to
         discuss moving sack operations to the Salt Lake City ASF anticipated in
         May 2008.

     •   April 29, 2008 – Management met with APWU union officials to discuss Salt Lake
         City AMC sack operations.

     •   May 22, 2008 – Management notified mail handlers and APWU union officials of
         moving sack operations on June 16, 2008.

     •   August 30, 2008 – Management closed the Salt Lake City AMC. The retail unit
         and post office box remain operational in the facility.


15
   Article 12 of the Collective Bargaining Agreement applies when a major relocation of employees is planned in a
major metropolitan area. The Postal Service must meet with the unions at the national level at least 90 days in
advance of the plan’s implementation and must also meet with unions at the regional level in advance of the
relocation (6 months in advance, if possible). When an independent installation is discontinued, full-time and part-
time employees will be involuntarily reassigned to continuing installations, to the maximum extent possible.
16
   Article 7 of the Collective Bargaining Agreement states work in different crafts, occupational groups or level will not
be combined into one job. However, management may establish full-time schedule assignments by including work
within different crafts or occupational groups after determining all available work within each separate craft by tour
has been combined and work of different crafts in the same age level by tour has been combined. Management must
inform the appropriate representatives of the affected unions in advance of the reasons for combining full-time
assignments within different crafts.




                                                           15
Salt Lake City Air Mail Center Closure                                     EN-AR-09-004



    •   September 10, 2008 – A custodial employee filed a grievance due to custodians
        used to break down or work Express Mail in violation of crossing crafts.

    •   October 22, 2008 – The grievance was resolved when management was
        instructed to cease crossing crafts with custodians.




                                           16
Salt Lake City Air Mail Center Closure                                                              EN-AR-09-004




 APPENDIX C: STATUS OF AIRPORT MAIL CENTERS AS OF OCTOBER 22, 2008




                                                                                   Number of
                                                                                   Facilities
                       Outsourced                                                           14
                       Outsourcing date 2009                                                  9
                       Direct tender/receipt (in-house)                                     14
                       Changing from in-house to outsourced                                   1
                       Not considered for outsourcing                                         4
                       Re-classified as P&DC                                                  7
                       Re-classified as carrier unit                                          1
                       Off commercial air network17                                         30

                                                                        Total                  80


Note: The Salt Lake City AMC is one of the direct tender/receipt (in-house) facilities.




17
     Commercial air carriers who provide mail transportation services to the Postal Service.




                                                            17
Salt Lake City Air Mail Center Closure                                              EN-AR-09-004



                                APPENDIX D: SALT LAKE CITY AMC LAND LEASE TIMELINE



                           Salt Lake City AMC Closure Timeline
        March 8, 2005           February 2007      April 2007                  April 24, 2008
        Comparative             2005 comparative   Express mail                April 29, 2008
        analysis conducted      analysis updated   was moved from              Management held               October 1, 2008
        on 54 AMCs to           on 14 AMCs. SLC    SLC AMC to                  meetings with Mail          SLC AMC staffed 10
        compare                 AMC is not         SLC P&DC.                   Handlers and APWU           employees on rolls,
        outsourcing of          included in this                               unions regarding
        functions vs.           analysis.                                      moving operations to
        keeping in-house.



          FY 2005                   FY 2007                              FY 2008                                   FY 2009


                                                        September 2007                   August 30, 2008
                                                        Registry mail was                SLC-AMC closed.
                                                        moved from the SLC-              Retail unit and P.O.
                                                        AMC to SLC-P&DC.                 Box Section will
                                                                                         remain.


        *42 year land lease agreement between Postal Service and Salt Lake City International Airport -
        3/1/1987 thru 2/28/2029. The annual lease cost $62,460, with a monthly rental cost of $5,205.
        Postal Service cannot break the lease until August 2012.




                                                                18
Salt Lake City Air Mail Center Closure                                                     EN-AR-09-004



                 APPENDIX E: WORKHOUR ANALYSIS METHODOLOGY

We prepared an analysis to determine cost savings through attrition from reduction of
workhours associated with the non-core functions moved from the Salt Lake City AMC
to the Salt Lake City P&DC.

     •   We used FY 2008 data to analyze mail processing mail volume and workhours
         for the Salt Lake City AMC and Salt Lake City P&DC.

     •   For each Salt Lake City AMC mail processing operation, we determined how
         many workhours from the Salt Lake City AMC would be needed to process the
         mail volume being transferred to the P&DC, based on the Salt Lake City P&DC’s
         actual productivity rate. For Salt Lake City AMC operations without mail volume
         but with workhours, we transferred all workhours to the Salt Lake City P&DC.

     •   After determining the workhours needed18 for the former Salt Lake City AMC mail
         processing operations, we subtracted that number from the total number of Salt
         Lake City AMC workhours for the operation to produce the total workhours that
         can be saved. We then multiplied the workhours saved by the applicable labor
         rate for FY 2008. In some operations, more workhours were needed to process
         the mail volume and in some operations, less were needed.

     •   The Labor Distribution Code Operation Report showed 42,418 workhours in the
         mail processing operations of the Salt Lake City AMC. We determined 21,507
         workhours were needed to process the mail volume transferred to the Salt Lake
         City P&DC based on the Salt Lake City P&DC productivity rate for those
         operations. We recognized that approximately 8,750 hours have been reduced
         since the closure. Therefore, approximately 12,161 workhours could be
         eliminated through attrition. We compared our analysis to the number of former
         Salt Lake City AMC employees on rolls at the Salt Lake City P&DC.

     •   Management transferred 22,750 hours (13 bargaining unit employees) to the Salt
         Lake City P&DC. We subtracted 15,810 hours (nine bargaining unit employees),
         and determined 6,940 hours could be eliminated through attrition.

     •   Using the total number of clerk and mail handler hours and the average wage,
         we calculated the total payroll for the facility. The attrition rate is the percentage
         of payroll that management can reduce annually. Because not all employees will
         retire or leave on January 1, we assume the rate of attrition to be 20 percent the
         1st year, 40 percent the 2nd year, 60 percent the 3rd year, 80 percent the 4th
         year, and 100 percent for the 5th year.


18
  Formula for determining workhours needed: AMC Mail Volume/P&DC Productivity Rate = AMC Workhours
Needed.




                                                   19
Salt Lake City Air Mail Center Closure                                      EN-AR-09-004



Our analysis takes into account the monetary savings the Postal Service has realized
through the reduction of workhours due to the closure. We determined the number of
workhours reduced by calculating the number of workhours per work year for the
number of bargaining unit employees reduced. We then multiplied that number by the
applicable labor rate. Our cash flow analysis took into account the 4 percent cost of
borrowing rate to the Postal Service in FY 2008. We determined the Postal Service
would save approximately $414,819 over a 5-year period.




                                          20
Salt Lake City Air Mail Center Closure                                           EN-AR-09-004



                   APPENDIX F: FACILITY ANALYSIS METHODOLOGY

The Postal Service signed a 42-year land lease with the City of Salt Lake Airport
Authority on January 20, 1987. The lease is currently in its 22nd year, with payments at
$5,205 per month. Lease payments are scheduled to increase in 2010 to $6,181 per
month. The Postal Service may terminate the lease after the 25th year, in August
2012. If the Postal Service elects to sell or assign its interests during the term of the
lease, the Postal Service must offer to sell its interests (in this case the building) to the
City of Salt Lake first.

    •   We calculated the operating expenses of the Salt Lake City AMC for FY 2006
        through FY 2009. We also compared the operating expenses 6 months prior to
        the closure to the expenses 6 months after the closure.

    •   We determined if the Postal Service terminates the land lease in August 2012, it
        would save $1,770,450 in lease costs and $1,816,241 in operating expenses.

    •   The Postal Service may be able to sell the un-depreciated value of the building
        back to the city of Salt Lake Airport Authority. The un-depreciated value in
        August 2012 will be approximately xxxxxxxxxxx, assuming depreciation remains
        constant until 2012.

We considered two options:

    •   Option 1 – Terminate the land lease in August 2012, sell the un-depreciated
        value of the AMC (approximately xxxxxxxxxx) to the City of Salt Lake Airport
        Authority, and incur the cost of the THS operating out of its own facility. The
        Postal Service would realize a savings of approximately $117,099 on the
        expenses associated with maintaining the facility. The THS for FedEx and UPS
        would then have to operate out of its own facility. We used an average of the
        fixed costs quoted by the THS on contract number SNET-08-MFE dated January
        13, 2009. The average fixed cost is $505,394. After factoring in the cost of
        borrowing at 3.5 percent and assuming the THS facility cost will remain constant,
        the 10-year monetary impact of terminating the lease, selling the building, and
        the THS operating out of its own facility would be a loss of $172,473. The
        monetary impact for the remainder of the lease would be a loss of xxxxxxxxxx.
        This option assumes the retail unit and post office box section would be
        absorbed by nearby operations.

    •   Option 2 – This option maintains the facility and allows the THS to lease
        approximately 50 percent of the building in the rear of the facility. The Postal
        Service would continue to incur facility costs and will not realize cost savings
        from lease expenses. After factoring in the cost of borrowing at 3.5 percent, the
        10-year monetary impact of maintaining the facility is a loss of $638,593. The
        monetary impact for the remainder of the lease is a loss of $1,370,858. This



                                             21
Salt Lake City Air Mail Center Closure                                         EN-AR-09-004



        option assumes only the retail unit, post office box section, and THS contractors
        will use the facility for the next 20 years.

In both options, the Postal Service will incur a loss. However, option 1 is a better
monetary option, because the Postal Service will incur less of a loss. The net present
value of the 10-year monetary impact is $466,120 in funds put to better use.




                                            22
Salt Lake City Air Mail Center Closure                                                   EN-AR-09-004



                  APPENDIX G: SUMMARY OF FUNDS PUT TO BETTER USE

                     Description                                Funds Put to Better Use19
            Workhours                                                                 414,891
            Building                                                                  466,120
            Total                                                                    $881,011




19
     Funds that could be used more efficiently by implementing recommended actions.




                                                         23
Salt Lake City Air Mail Center Closure                      EN-AR-09-004



                        APPENDIX H: MANAGEMENT’S COMMENTS




                                         24
Salt Lake City Air Mail Center Closure        EN-AR-09-004




                                         25
Salt Lake City Air Mail Center Closure        EN-AR-09-004




                                         26
